TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Further Enhancements to the Guidance for
                    Testing Practices Will Help Ensure the
                      Quality of Modernization Projects



                                            March 2006

                              Reference Number: 2006-20-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 17, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Further Enhancements to the Guidance for
                              Testing Practices Will Help Ensure the Quality of Modernization
                              Projects (Audit # 200520019)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Business
 Systems Modernization (BSM) program testing processes. The overall objective of this review
 was to determine whether the BSM program testing processes are conducted efficiently and
 effectively and are ensuring the testing of appropriate system requirements. As part of this audit,
 we followed up on Treasury Inspector General for Tax Administration audit recommendations
 about the effectiveness of the BSM program testing activities reported since issuance of our
 report entitled Testing Practices for Business Systems Modernization Projects Need
 Improvement.1

 Synopsis
 The BSM program is a complex effort to modernize the IRS’ technology and business processes.
 According to the IRS, this effort involves integrating thousands of hardware and software
 components over 15 years with PRIME contractor2 costs of over $8 billion. As the BSM
 projects progress through development and deployment, they undergo various testing processes
 to ensure they meet functional and performance specifications and can be effectively used in
 their intended operational environment.



 1
  Reference Number 2003-20-178, dated September 2003.
 2
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
 contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
 oversee the work of the PRIME contractor.
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



The Business System Modernization Office (BSMO) and the PRIME contractor are primarily
responsible for ensuring BSM projects have been adequately tested and the projects perform as
expected. The BSMO and the PRIME contractor developed a systems development
methodology called the Enterprise Life Cycle (ELC)3 that provides guidance and detailed
processes to be followed by project teams working on BSM projects. Included in the ELC is a
process description which details processes for designing, developing, and testing BSM projects.
We commented on the effectiveness of the BSM program testing activities in a report entitled
Testing Practices for Business Systems Modernization Projects Need Improvement. Since the
issuance of the September 2003 audit report, the BSMO has taken actions to provide specific
guidance to ensure the testing of project requirements will meet business needs. We analyzed
our audit report findings with testing concerns issued since the September 2003 audit report and
determined the guidance updates issued between February and May 2005 adequately address
testing process concerns.
Although the BSMO has updated its testing guidance, it can further improve testing procedures
and testing activities to help ensure development of quality modernization projects. Our reviews
of a sample of modernization project test results folders4 found documentation of testing results
and related management reviews needs improvement. Our assessment of the current BSMO
testing procedures found additions and clarification to testing guidance can help ensure the
quality of modernization projects, revisions to the test readiness review procedure can help
ensure its effectiveness, and clarification of participants’ roles and responsibilities can make
testing activity performance more efficient.
While the Office of Release Management has made significant efforts to address and document
the testing activities performed by the BSMO, it did not identify all the necessary guidance to
document the testing responsibilities. Including additional detail in the testing guidance will also
allow for efficiency in conducting testing by reducing the need to interpret testing process
requirements. Adding specific guidance about documenting testing activities and results allows
for a readily available historical reference for analyses that may be needed. Additionally,
without detailed procedures describing all of the roles and responsibilities for conducting the
testing activities, the testing procedures will not be able to provide a consistent process for
BSM employees to effectively perform, monitor, and control the testing activities within the
BSMO. This could affect the efficiency and effectiveness of testing activities.




3
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that enable
delivery of promised business results. See Appendix IV for an overview of the components of the ELC.
4
  The test results folder is the documentation maintained by the testing organization that contains all the information
pertinent to the test case executed.
                                                                                                                     2
                 Further Enhancements to the Guidance for Testing Practices
                    Will Help Ensure the Quality of Modernization Projects




Recommendations
To help ensure adequate documentation and review of testing results, we recommended the Chief
Information Officer direct the Office of Release Management to establish guidance requiring the
BSMO’s Acquisition Project Managers to certify test results folders are complete and reviewed
as part of the issuance of related end of test reports. This guidance should be specified in
revisions/updates to the testing procedures. To help ensure a consistent process to effectively
monitor and control the testing activities within the BSMO, the Chief Information Officer should
direct the Office of Release Management to provide additional detail to the testing activities
within the BSMO, designate the use of the Test Readiness Checklist as mandatory and update the
Checklist to include all appropriate questions, and amend the testing procedures to specify
participants’ roles in testing and clarify their related scope of responsibility. Appendix VII
provides specific suggestions to provide additional guidance or clarification to existing guidance
in the testing procedures.

Response
IRS management agreed with all of our recommendations. To implement the corrective actions,
the Technology Release Management organization will form a working group of stakeholders to
review existing test guidance and the suggestions provided in Appendix VII of this report. The
recommendations of the working group will be vetted through the formal IRS document review
processes, and revised guidance will be posted to the Process Asset Library after executive
approval. Management’s complete response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program),
at (202) 622-8510.




                                                                                                3
                        Further Enhancements to the Guidance for Testing Practices
                           Will Help Ensure the Quality of Modernization Projects




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Business Systems Modernization Office Has Taken
          Significant Actions to Provide Project Testing Guidance ............................Page 3
          Documentation of Testing Results and Related Management
          Reviews Needs Improvement .......................................................................Page 4
                    Recommendation 1:........................................................Page 6

          Additions and Clarification to Testing Guidance Can Help
          Ensure the Quality of Modernization Projects..............................................Page 6
                    Recommendation 2:........................................................Page 8

          Revisions to the Test Readiness Review Procedure Can
          Help Ensure Its Effectiveness ............................................................... Page 8
                    Recommendation 3:........................................................Page 9

          Clarifying Participants’ Roles and Responsibilities Can
          Make Testing Activity Performance More Efficient ....................................Page 10
                    Recommendation 4:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 16
          Appendix V – Business Systems Modernization Office
          Testing Procedures........................................................................................Page 21
          Appendix VI – Analysis of Testing Procedures Issued by the
          Business Systems Modernization Office ......................................................Page 23
          Further Enhancements to the Guidance for Testing Practices
             Will Help Ensure the Quality of Modernization Projects



Appendix VII – Suggested Additions/Clarification to the
Business Systems Modernization Office Testing Procedures ......................Page 28
Appendix VIII – Management’s Response to the Draft Report ...................Page 35
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects




                                             Background

The Business Systems Modernization (BSM) program is a complex effort to modernize the
Internal Revenue Service’s (IRS) technology and business processes. According to the IRS, this
effort involves integrating thousands of hardware and software components over 15 years with
PRIME contractor1 costs of over $8 billion. As the BSM projects progress through development
and deployment, they undergo various testing processes to ensure they meet functional and
performance specifications and can be effectively used in their intended operational
environment. Testing of new hardware and software is often the last opportunity for IRS
executives and project managers to ensure BSM projects meet requirements and expectations
before they become operational. These testing processes are a key management control for
ensuring IRS executives have valid credible information upon which to base their decisions for
modernization project investments.
The Business Systems Modernization Office (BSMO)             The testing process is designed to
and the PRIME contractor are primarily responsible for       detect errors in both software and
ensuring BSM projects have been adequately tested and        hardware before a system is made
the projects perform as expected. The BSMO and the                      operational.
PRIME contractor developed a systems development
methodology called the Enterprise Life Cycle (ELC)2 that provides guidance and detailed
processes to be followed by project teams working on BSM projects. Included in the ELC is a
process description which details processes for designing, developing, and testing BSM projects.
The testing process includes several subphases:
    •   The Combined System Integration Test is conducted in the Enterprise Integration and
        Test Environment3 and consists of activities designed to verify the quality of the
        integrated system (i.e., verify the system is integrated into other IRS systems properly
        and functions as required). The Combined System Integration Test is performed by the
        PRIME contractor with participation by the IRS in a joint effort.
    •   The Government Acceptance Test is conducted in the Enterprise Integration and Test
        Environment and consists of activities designed to independently verify aspects of the

1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that enable
delivery of promised business results. See Appendix IV for an overview of the components of the ELC.
3
  The Enterprise Integration and Test Environment contains components representative of key elements of the
enterprise architecture to support integration and the full range of testing activities.
                                                                                                            Page 1
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



         capabilities tested during the Combined System Integration Test. The Government
         Acceptance Test provides the system owner with an independent assessment of the
         system to determine its fitness for implementation. The Government Acceptance Test is
         performed by the IRS’ Product Assurance office when the project meets its priority
         criteria.
    •    The Final Integration Test is conducted in the Enterprise Integration and Test
         Environment with a copy of production data and consists of activities designed to ensure
         the interoperability of systems. This activity is the final step prior to the application
         release into production. The Final Integration Test is performed by the Product
         Assurance office.
    •    The Deployment Site Readiness Test is conducted in the IRS production environment
         and consists of activities designed to ensure the deployed application works in the
         production environment as intended. The Deployment Site Readiness Test is performed
         by the PRIME contractor.
In addition to the above testing subphases, testing may also include the following test activities:
    •    The Application Regression Test appears in many ELC test plans. The purpose of
         regression testing is to ensure a modified system still works. Whereas other testing
         focuses on testing whether the new and modified functionality works properly, regression
         testing focuses on testing the integrity of previously tested portions of the system.
    •    Post Initial Operational Capability4 Testing has been conducted on projects when
         testing activities were to be completed after the initial operational capability date. For
         example, on one project, testing needed to be customer run during production. On
         another project, the IRS decided to initiate the application into operation before
         completing all testing. The IRS decided the remaining testing could be completed after
         the application’s initiation into operation.
The testing process description also includes guidance for performing the systems evaluation
process. Included are criteria for skills and abilities of the individuals performing the testing and
task descriptions for test planning, performance, and closeout.
This review was performed at the BSMO facilities in New Carrollton, Maryland, during the
period August through December 2005. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.



4
 Initial Operational Capability is a set of functional and performance characteristics and threshold parameters
defined and agreed to by the business owner for the specific release at the time of Logical Design.
                                                                                                             Page 2
                       Further Enhancements to the Guidance for Testing Practices
                          Will Help Ensure the Quality of Modernization Projects




                                        Results of Review

The Business Systems Modernization Office Has Taken Significant
Actions to Provide Project Testing Guidance
We commented on the effectiveness of the BSM program testing activities in a report entitled
Testing Practices for Business Systems Modernization Projects Need Improvement.5 The report
included the following findings:
      y    Insufficient testing plans and facilities contributed to project delays. All necessary details
           or procedures were not developed and followed to properly conduct performance testing,
           and the capacity of the test lab was inadequate to support the BSM program.
      y    Testing activities were not completed before putting systems into operation. Testing was
           not always performed to assure the adequacy of project capabilities, hardware upgrades,
           and system performance.
      y    Failed tests were not being properly resolved during project development.
           Documentation was not adequate in defect reports6 to describe actions to resolve failed
           tests, and guidance was insufficient to direct closure of defect reports for failed tests.
      y    Security test documentation was not completed before systems were placed into
           operation.
Since the issuance of the September 2003 audit report, the BSMO has taken actions to provide
specific guidance to ensure the testing of project requirements will meet business needs. Further,
we analyzed our audit report findings with testing concerns issued since the September 2003
audit report and determined the guidance adequately addresses testing process concerns.
The testing guidance updates were issued between February and May 2005 and include
procedures for:
      y    Test planning and test design.
      y    Requirements review.
      y    Test readiness reviews.
      y    Defect Review Board.


5
    Reference Number 2003-20-178, dated September 2003.
6
    A defect report is the mechanism for formally documenting a perceived problem in a controlled product.
                                                                                                             Page 3
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



    y   Test case deferral and waiver.
    y   Test folders and records.
    y   Test completion reporting.
Appendix V provides a synopsis of the guidance issued. Appendix VI presents analyses of our
audit report findings and the BSMO’s subsequently issued guidance.

The Filing and Payment Compliance Project’s Release 1.1 test case scenarios
include all identified project requirements
In response to a request by the Associate Chief Information Officer, BSM, we reviewed
the adequacy of test case documentation for the Filing and Payment Compliance Project’s
Release 1.1.7 Our analysis showed identified project requirements were traced from the System
Requirements Report8 to the project’s Requirements Traceability Verification Matrix.9
Successful tracing of project requirements indicates the testing should include all identified
project requirements.

Documentation of Testing Results and Related Management Reviews
Needs Improvement
The BSMO Test Folders and Records Procedure defines the process for documenting and
verifying test results folders. This procedure applies to all BSMO projects in which a Combined
Systems Integration Test, Government Acceptance Test, or Deployment Site Readiness Test is
performed. The BSMO’s Acquisition Project Manager is responsible for ensuring the activities
to support the testing subphases are performed.
The test results folder is the documentation maintained by the testing organization that contains
all the information pertinent to the test case executed. It ensures access to completed test results
for a historical reference. The items for inclusion in the test results folder are detailed in the Test
Folders and Records Procedure and include the test script, 10 Test Case Summary Certification
Report (Form 6503), test artifacts (test result record), and related defect reports.




7
  The Filing and Payment Compliance Project is an end-to-end strategy to resolve payment and filing compliance
issues quickly and fairly. Release 1.1 will use a combination of commercial off-the-shelf software and manual
processes for the Filing and Payment Compliance system.
8
  The System Requirements Report documents a feasible, quantified, verifiable set of requirements that define and
scope the business system being developed by the project.
9
  The Requirements Traceability Verification Matrix documents the specific test cases and test results for each
requirement.
10
   A series of instructions that carry out the test case description contained in the test plan.
                                                                                                           Page 4
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



We reviewed a sample of test results folders for the e-Services,11 Modernized e-File (MeF),12 and
Customer Account Data Engine (CADE)13 Projects. The MeF Project’s test results folders
included the test script with test results for each step. In addition, the MeF Project’s test results
folders with defect reports included the defect report number on the initial artifact and the
updated artifact to show the defect was fixed.
However, our reviews showed the e-Services and CADE Projects’ test results folders did not
include all required documentation, and folder reviews were not always performed. Table 1
summarizes deficiencies in the test results folder documentation.
                  Table 1: Sample Review Results of Test Results Folders
Test Results Folders Include:                                               e-Services*        CADE**        MeF***
Test Script                                                                    0 of 29          17 of 17     20 of 20
Test Completion Date                                                          24 of 29           0 of 17     20 of 20
Review Date                                                                    0 of 29           0 of 17     20 of 20
Current Version of Form 6503                                                   0 of 29          17 of 17     20 of 20
Test Artifact                                                                 29 of 29         15 of 17      20 of 20
Test Result on Form 6503                                                      29 of 29          8 of 17      20 of 20
Documentation of Test Variances                                               29 of 29          9 of 17      20 of 20
Tester’s Name                                                                 29 of 29          15 of 17     20 of 20
Documentation of Review                                                       29 of 29          11 of 17     20 of 20
Information on Related Defect Reports                                          1 of 11          2 of 5        3 of 3
 Source: The e-Services Project Release 2.2 and CADE Project Release 1.3.1 Combined System Integration Tests,
 and the MeF Project Release 3.1 Deployment Site Readiness Test.
 * We requested test results folders for 30 sampled test cases from the e-Services Project Release 2.2 Combined
 System Integration Test. One test case was deferred and a test results folder was not maintained.
 ** We requested test results folders for 20 sampled test cases from the CADE Project Release 1.3.1 Combined
 System Integration Test. Two test cases were deferred and test results folders were not maintained. One folder did
 not include the Form 6503 for our analysis.
 *** We requested and received all test results folders for 20 sampled test cases from the MeF Project Release 3.1
 Deployment Site Readiness Test.




11
   The e-Services Project provides a set of web-based business products to tax practitioners and other third parties
such as banks and brokerage firms.
12
   The MeF Project’s goal is to replace the current technology for filing IRS tax return forms with modernized,
Internet-based electronic filing applications.
13
   The CADE Project will consist of databases and related applications and become the foundation for managing
taxpayer accounts in the IRS modernization plan.
                                                                                                               Page 5
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



Although the project teams were generally able to provide the documentation required by the
Test Folders and Records Procedure, the documentation did not always reside in the test results
folder, or did not specifically meet the form described by the procedure. For example, the
e-Services Project relied on the PRIME contractor to maintain the record of the test case
completion and test case review dates. However, the records maintained by the PRIME
contractor did not include the required information.
As detailed later in this report, additional detail and clarity in the Test Folders and Records
Procedure will help to ensure adequate test results folder documentation is maintained. The
e-Services and CADE Projects’ Acquisition Project Managers did not ensure all appropriate
testing documentation was maintained in these project files. Currently, this procedure does not
require the Acquisition Project Manager to verify all test results folders are complete and
reviewed.
Without complete test results folder documentation, there may not be sufficient evidence
showing the system being developed was adequately tested. In addition, the project will not
have a complete record to support the testing of the requirements of the system being developed
or a historical reference for subsequent inquiries about test results.

Recommendation
Recommendation 1: The Chief Information Officer (CIO) should direct the Office of
Release Management to establish guidance requiring Acquisition Project Managers to certify test
results folders are complete and reviewed as part of the issuance of related end of test reports.
This guidance should be specified in revisions/updates to the testing procedures.
        Management’s Response: The IRS agreed with this recommendation. The
        Technology Release Management organization will form a working group of
        stakeholders to review existing test guidance, including the existing Test Folders and
        Records Procedure and the Test Completion Reporting Procedure. The recommendations
        of the working group will be vetted through the formal IRS document review processes
        and revised guidance will be posted to the Process Asset Library after executive
        approval.

Additions and Clarification to Testing Guidance Can Help Ensure the
Quality of Modernization Projects
Our reviews of the testing processes show the IRS monitors the contractor’s Applications
Qualification Testing.14 The IRS activities generally begin subsequent to the successful


14
  Application Qualification Testing focuses on verifying that business processes are supported by the application
and that the requirements of the application are met.
                                                                                                            Page 6
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



completion of Applications Qualification Testing. The IRS testing activities assess the adequacy
of the application’s integration and performance in the IRS’ operating environment. These
assessments are accomplished through the Combined System Integration Test, Government
Acceptance Test, Final Integration Test, and Deployment Site Readiness Test.
As discussed above, the BSMO has taken actions to provide specific guidance to ensure the
testing of project requirements will meet the business’ needs. Our analysis of the BSMO’s
testing guidance shows further enhancements can be made in the following procedures to help
ensure the quality of BSM projects.
     •   Test Planning and Test Design Procedure – This procedure can be improved by
         providing specific references to standards to be used in test planning, defining specific
         procedures for problem reporting and escalation, and establishing procedures for a peer
         or project review of the test cases and test scripts to ensure their adequacy.
     •   Test Folders and Records Procedure – This procedure can be improved by providing
         specific requirements for the scope, documentation, and completion of the technical
         review of test artifacts, technical verification of test results, and test results folder
         document verification.
         Because different versions of the Form 6503 are in use, the procedure should specify the
         version of the Form to be used.
         Although the Test Folders and Records Procedure requires test results folders be
         maintained and controlled until the end of test script execution and test results
         verification, there is no guidance for the retention location or duration for test results
         folders after test completion.
     •   Test Completion Reporting Procedure – This procedure can be improved by providing
         the required elements for the make-up of the Final Test Completion Report and the
         actions necessary if the report is not issued within its 30-day requirement.
         The Test Completion Reporting Procedure requires the disposition of all unresolved
         severity 3 and 4 defect reports15 be reviewed for impact with an action plan specifying
         proposed resolution. However, the procedure does not provide what elements should be
         included in the action plan, the steps that should be followed to resolve the defect reports,
         or the actions to take if a defect cannot be resolved. Also, the procedure does not include
         the method to report a project’s post initial operating capability testing results.
     •   Defect Review Board Procedure – This procedure includes steps to identify defect reports
         from previous tests, review current defect reports and agree on their severity levels, and

15
  A severity 3 defect report involves problems that are serious but do not prevent using or testing a required
capability. A severity 4 defect report involves minor problems, or documentation errors, that do not cause
deviations from tasks or project standards.
                                                                                                                 Page 7
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



       establish target dates for fixing the defects. However, the procedure can be improved by
       providing direction for the Defect Review Board to take if prior defect reports are
       identified, to document decisions about changes to a defect’s severity level, and if defects
       are not resolved by the established target dates.
Including additional detail in the testing guidance will also allow for improved efficiency in
conducting testing by reducing the need for each project to interpret testing requirements.
Adding specific guidance about documenting testing activities and results also ensures more
readily available historical information for future analyses.

Recommendation
Recommendation 2: The CIO should direct the Office of Release Management to provide
additional detail in the testing procedures to help ensure a consistent process to effectively
monitor and control the testing activities within the BSMO. Appendix VII provides specific
suggestions to provide additional guidance or clarification to existing guidance in the testing
procedures.
       Management’s Response: The IRS agreed with this recommendation. The
       Technology Release Management organization will form a working group of
       stakeholders to review existing test guidance and the suggestions provided in
       Appendix VII of this report and provide additional detail to the testing procedures within
       the Modernization and Information Technology Services organization. The
       recommendations of the working group will be vetted through the formal IRS document
       review processes and revised guidance will be posted to the Process Asset Library after
       executive approval.

Revisions to the Test Readiness Review Procedure Can Help Ensure
Its Effectiveness
A Test Readiness Review is a formal lifecycle review conducted to assess the readiness of the
test team, test environment, development team, and supporting organizations to begin testing.
The decision to proceed with the next phase of testing is made based on a successful Test
Readiness Review outcome. The projects we reviewed are using the Test Readiness Review
Checklist. However, the projects are using different versions of the Checklist (one version was
published in the Internal Revenue Manual and the other version was published in a BSMO
procedure). Further, in conducting the reviews the project teams have removed some of the
questions from the Checklist and added other questions.
Examples of questions from the Checklist that were not included in some of the projects’ Test
Readiness Reviews include:


                                                                                            Page 8
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



   •   Has each organization designated personnel to assist/support with the execution of the
       test procedures?
   •   Has a complete list of documentation (with locations) been provided to the test team?
   •   Have all defects for the prior test phase been resolved, verified, and either closed or
       approved for deferral/waiver?
Examples of questions that were added to the Checklist, but were not included in the Test
Readiness Review procedure include:
   •   Has all required data been created and deemed ready for use?
   •   Have all limitations to, or constraints upon, planned testing activities been documented?
   •   Has environment readiness been validated?
The use of the Test Readiness Review Checklist in the BSMO procedure is not mandated. Each
project team determines which questions to include in the Checklist. The Product Assurance
office uses the Internal Revenue Manual in its testing activities, which includes a different Test
Readiness Review Checklist.
While the Office of Release Management has made significant efforts to address and document
the testing activities performed by the BSMO, it did not identify all necessary guidance to
perform and document the testing activities. Without requiring the use of the Checklist provided
in the Test Readiness Review Procedure and periodically updating it as modifications are
identified, projects may not consider all appropriate questions in determining test readiness. As a
result, a testing phase could begin prematurely and testing delays could occur because all items
were not addressed to help ensure efficient and effective testing activities.

Recommendation
Recommendation 3: The CIO should direct the Office of Release Management to review and
update the Test Readiness Review Checklist to include all appropriate questions. The
completion of the Checklist should be designated as a mandatory activity and all questions from
the Checklist should be answered or noted as “not applicable.”
       Management’s Response: The IRS agreed with this recommendation. The
       Technology Release Management organization will form a working group of
       stakeholders to review existing test guidance, including the existing Test Readiness
       Review Procedure. The recommendations of the working group will be vetted through
       the formal IRS document review processes and revised guidance will be posted on the
       Process Asset Library after executive approval.



                                                                                             Page 9
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



Clarifying Participants’ Roles and Responsibilities Can Make Testing
Activity Performance More Efficient
The BSMO testing procedures do not always clearly define the roles and responsibilities of all
the participants in the testing activities. The Test Lead or Test Manager is usually identified in
the testing procedures as the official responsible for performing the testing activities with the
Acquisition Project Manager, Office of Release Management, business organization, contractor,
or other Modernization and Information Technology Services organization either contributing or
providing support to the testing activity. However, these testing procedures did not always
provide specific detail about what these support activities should include.
   •   Test Planning and Test Design Procedure – The procedure is not clear as to which
       participants, including the Test Lead, are responsible for requirements gathering,
       development and analysis, and performing the Customer Technical Review.
   •   Test Readiness Review Procedure – The procedure indicates the Test Team is responsible
       for performing this activity. The procedure does not specify whether the Test Manager,
       Test Lead, or Acquisition Project Manager is responsible for initiating and planning this
       review.
   •   Defect Review Board Procedure – The procedure states a Defect Review Board Lead is
       responsible for initiating this activity. However, there is nothing in the procedure
       indicating who is designated as the Defect Review Board Lead or who is responsible for
       assigning this role.
   •   Test Folders and Records Procedure – The procedure contains steps requiring a technical
       review of test artifacts, technical verification of test results, and test results folder
       document verification. These procedural steps do not identify who is responsible for
       performing these reviews.
   •   ELC Enterprise Integration and Test Supplement – The Combined System and
       Integration Test procedure is based on the PRIME contractor being responsible for
       leading the testing activities. The procedure considers the IRS as a contributor or
       reviewer. The procedure does not provide a clear description of the responsibilities
       required of the IRS as the contributor.
While the Office of Release Management has made significant efforts to address and document
the testing activities performed by the BSMO, it did not identify all the necessary guidance to
document the testing responsibilities. Without detailed procedures describing all the roles and
responsibilities for conducting the testing activities, the testing procedures will not be able to
provide a consistent process for BSM employees to effectively perform, monitor, and control the
testing activities within the BSMO. This could affect the efficiency and effectiveness of testing
activities.

                                                                                          Page 10
                 Further Enhancements to the Guidance for Testing Practices
                    Will Help Ensure the Quality of Modernization Projects



Recommendation
Recommendation 4: The CIO should direct the Office of Release Management to amend the
testing procedures to specify participants’ roles in testing and clarify their related scope of
responsibility.
       Management’s Response: The IRS agreed with this recommendation. The
       Technology Release Management organization will form a working group of
       stakeholders to review existing test guidance, including all 10 of the existing testing
       procedures, to clarify participants’ roles and responsibilities. The recommendations of
       the working group will be vetted through the formal IRS document review processes and
       revised guidance will be posted on the IRS Process Asset Library after executive
       approval.




                                                                                        Page 11
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service’s
(IRS) Business Systems Modernization (BSM) program testing processes are conducted
efficiently and effectively and are ensuring the testing of appropriate system requirements. As
part of this audit, we followed up on Treasury Inspector General for Tax Administration audit
recommendations about the effectiveness of the BSM program testing activities reported since
issuance of our report entitled Testing Practices for Business Systems Modernization Projects
Need Improvement.1 To accomplish this objective, we:
I.      Determined whether the Business Systems Modernization Office (BSMO) provided
        adequate testing guidance to ensure project requirements testing provides assurance that
        systems and applications meet the IRS’ business needs.
        A. Reviewed findings from our audit reports issued since September 2003 to determine
           whether these issues have been addressed with updated guidance.
        B. Assessed the adequacy of updated BSMO testing procedures by comparing them to
           industry standards presented by the Software Engineering Institute’s Capability
           Maturity Model ® Integration (CMMI®)2 and the Institute of Electrical and Electronic
           Engineers.
        C. Interviewed and obtained documentation from the Modernization and Information
           Technology Services organization’s Office of Release Management, Integration, Test
           and Deployment staff, to determine the status of efforts to improve the testing
           processes.
II.     Determined whether the test case results completely and consistently documented the
        project requirements tested.




1
 Reference Number 2003-20-178, dated September 2003.
2
 CMMI® is a process improvement approach that helps integrate traditionally separate organizational functions, set
process improvement goals and priorities, provide guidance for quality processes, and provide a point of reference
for appraising current processes.

                                                                                                          Page 12
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



         A. Reviewed documentation to determine whether the Filing and Payment Compliance
            Project Release 1.13 project requirements were consistent between the System
            Requirements Report4 and Requirements Traceability Verification Matrix.5
         B. Determined whether the procedures for electronic test results folders6 reviews were
            adequate to provide sufficient review of the test case results. We judgmentally
            sampled test results folders from the following Modernization project releases:
            Customer Account Data Engine Project7 Release 1.3.1 – 20 of 468 folders;
            e-Services Project8 Release 2.2 – 30 of 300 folders; Modernized e-File Project9
            Release 3.1 – 20 of 178 folders. Our samples were used to evaluate the process to
            document, review, and approve test case results. We used judgmental samples
            because a precise projection of sample results over a population was not required.




3
  The Filing and Payment Compliance Project is an end-to-end strategy to resolve payment and filing compliance
issues quickly and fairly. Release 1.1 will use a combination of the commercial off-the-shelf software and manual
processes for the Filing and Payment Compliance system.
4
  The System Requirements Report documents a feasible, quantified, verifiable set of requirements that define and
scope the business system being developed by the project.
5
  The Requirements Traceability Verification Matrix documents the specific test cases and test results for each
requirement.
6
  The test results folder is the documentation maintained by the testing organization that contains all the information
pertinent to the test case executed.
7
  The Customer Account Data Engine Project will consist of databases and related applications and become the
foundation for managing taxpayer accounts in the IRS modernization plan.
8
  The e-Services Project provides a set of web-based business products to tax practitioners and other third parties
such as banks and brokerage firms.
9
  The Modernized e-File Project’s goal is to replace the current technology for filing IRS tax return forms with
modernized, Internet-based electronic filing applications.

                                                                                                              Page 13
                 Further Enhancements to the Guidance for Testing Practices
                    Will Help Ensure the Quality of Modernization Projects



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Michael Garcia, Senior Auditor
Phung H. Nguyen, Senior Auditor
Beverly Tamanaha, Senior Auditor




                                                                                         Page 14
                Further Enhancements to the Guidance for Testing Practices
                   Will Help Ensure the Quality of Modernization Projects



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Development OS:CIO:I:B
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:E
Deputy Associate Chief Information Officer, Business Integration OS:CIO:E
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:E
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Director, Stakeholder Management OS:CIO:SM
Director, Product Assurance OS:CIO:I:B:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Development OS:CIO:I:B
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 15
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



                                                                                                  Appendix IV

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle defines the processes, products, techniques, roles, responsibilities,
policies, procedures, and standards associated with planning, executing, and managing business
change. It includes redesign of business processes; transformation of the organization; and
development, integration, deployment, and maintenance of the related information technology
applications and infrastructure. Its immediate focus is the Internal Revenue Service (IRS)
Business Systems Modernization (BSM) program. Both the IRS and the PRIME contractor1
must follow the Enterprise Life Cycle in developing/acquiring business solutions for
modernization projects.
The Enterprise Life Cycle framework is a flexible and adaptable structure within which one
plans, executes, and integrates business change. The Enterprise Life Cycle process layer was
created principally from the Computer Sciences Corporation’s Catalyst® methodology.2 It is
intended to improve the acquisition, use, and management of information technology within the
IRS; facilitate management of large-scale business change; and enhance the methods of decision
making and information sharing. Other components and extensions were added as needed to
meet the specific needs of the IRS BSM program.

Enterprise Life Cycle Processes
A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The Enterprise Life Cycle
methodology includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
business change.
Management Processes, which are organized into management areas and operate across the
entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.

                                                                                                              Page 16
                                    Further Enhancements to the Guidance for Testing Practices
                                       Will Help Ensure the Quality of Modernization Projects



                                                     Enterprise Life-Cycle Processes


                                    IRS Governance and Investment Decision Management
  Management




                                             Program Management and Project Management

                                    Architectural Engineering / Development Coordination

                                                     Management Support Processes


                                                                                                  Business Processes




                                                                                                                           Operations & Support
                                                                                                          Applications
                Vision & Strategy




                                                      Development
                                      Architecture




                                                                                  Deployment
                                                                    Integration
  Life Cycle




                                                                                                                  Data


                                                                                               Organizational Change


                                                                                               Technical Infrastructure


                                                                                               Facilities Infrastructure


Source: Enterprise Life Cycle Guide, Page 2-16.




Life-Cycle Processes
The life-cycle processes of the Enterprise Life Cycle are divided into six phases, as described
below:
         •     Vision and Strategy - This phase establishes the overall direction and priorities for
               business change for the enterprise. It also identifies and prioritizes the business or system
               areas for further analysis.




                                                                                                                                              Page 17
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes
Besides the life-cycle processes, the Enterprise Life Cycle also addresses the various
management areas at the process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.

                                                                                            Page 18
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones
The Enterprise Life Cycle establishes a set of repeatable processes and a system of milestones,
checkpoints, and reviews that reduce the risks of system development, accelerate the delivery of
business solutions, and ensure alignment with the overall business strategy. The Enterprise Life
Cycle defines a series of milestones in the life-cycle processes. Milestones provide for
“go/no-go” decision points in the project and are sometimes associated with funding approval to
proceed. They occur at natural breaks in the process where there is new information regarding
costs, benefits, and risks and where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the enterprise architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
   •   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
   •   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
       activities are separated by two checkpoints. Activities leading up to Milestone 4A
       involve further requirements definition, production of the system’s physical design, and

                                                                                           Page 19
              Further Enhancements to the Guidance for Testing Practices
                 Will Help Ensure the Quality of Modernization Projects



    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                     Page 20
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



                                                                                 Appendix V

                Business Systems Modernization Office
                         Testing Procedures

The Office of Release Management developed the following Business Systems Modernization
Office (BSMO) testing procedures to clearly define and improve the testing activities and
responsibilities. These procedures were developed in response to the Treasury Inspector General
for Tax Administration report entitled The Office of Release Management Can Improve Controls
for Modernization Program Coordination.1 These procedures were initially issued between
February and May 2005 and apply to all Modernization projects in which Combined Systems
Integration Testing, Government Acceptance Testing, or Deployment Sight Readiness Testing is
performed.

BSMO Test Planning and Test Design Procedure (effective February 25, 2005;
revised September 1, 2005)
The purpose of this procedure is to establish guidelines for Test Planning and Test Design. Test
planning begins in the Domain Architecture Phase and continues throughout development. Test
design begins after the requirements and design have been approved. Test organizations having
responsibility for systems evaluation activities participate in systems requirements and system
design reviews to gain an understanding of the business needs and in requirements gathering,
development, and analysis activities conducted during the design phase.

BSMO Requirements Review Procedure (effective May 31, 2005)
This procedure describes the activities performed to ensure requirements for Modernization
projects are testable.

BSMO Test Readiness Review Procedure (effective February 25, 2005)
This procedure establishes guidelines for conducting Test Readiness Reviews for a
Modernization release. A Test Readiness Review is a formal lifecycle review that is conducted
to assess the readiness of the test team, test environment, development team, and supporting
organizations to begin testing. The decision to proceed with the next phase of testing is made
based on a successful Test Readiness Review outcome.




1
    Reference Number 2004-20-157, dated September 2004.

                                                                                         Page 21
                       Further Enhancements to the Guidance for Testing Practices
                          Will Help Ensure the Quality of Modernization Projects




BSMO Defect Review Board Procedure (effective February 25, 2005)
This procedure establishes the guidelines for the activities performed to establish and implement
a Defect Review Board for a Modernization release. A Defect Review Board is a group
discrepancy review activity to resolve issues surrounding final severity and/or priority levels for
test defect reports.2 The Defect Review Board is also responsible for evaluating and accepting or
rejecting defect reports deferred from previous releases or tests.

BSMO Test Case Deferral and Waiver Procedure (effective February 25, 2005)
This procedure defines the requirement for management of test case deferrals and waivers and to
ensure their identification, documentation, review, and disposition.

BSMO Test Folders and Records Procedure (effective May 31, 2005)
This procedure defines the process for documenting and verifying test results folders. The test
results folder is the documentation maintained by the testing organization(s) that contains all the
information pertinent to one test case executed on the identified release. It ensures access to
complete test results for historical reference.

BSMO Test Completion Reporting Procedure (effective May 31, 2005)
This procedure defines the process and structure for end of test reporting and describes the
activities that occur after test execution is complete including post test documentation to be
produced. Test documentation includes work products that provide evidence of successful test
completion (e.g., the test report and lessons learned documents). A test report provides a
detailed description and evaluation of testing activities. It documents actual testing results and
identifies applicable environmental, test approach, test design, test planning, and test execution
variances from the original test plan.




2
    A defect report is the mechanism for formally documenting a perceived problem in a controlled product.

                                                                                                             Page 22
                      Further Enhancements to the Guidance for Testing Practices
                         Will Help Ensure the Quality of Modernization Projects



                                                                                                  Appendix VI

         Analysis of Testing Procedures Issued by the
           Business Systems Modernization Office

Figure 1 presents testing practice findings from the prior Treasury Inspector General for Tax
Administration (TIGTA) audit report, Testing Practices for Business Systems Modernization
Projects Need Improvement1 and the subsequent Business Systems Modernization Office’s
(BSMO) Office of Release Management procedures addressing the findings.
                   Figure 1: Analysis of Test Practice Findings and
             Subsequent Business Systems Modernization Testing Guidance
             Prior Test Practice Findings                     BSMO Release Management Procedure
     Insufficient testing plans and facilities have           −   BSMO Test Planning and Test Design
     contributed to project delays. All necessary details         Procedure, effective February 25, 2005.
     or procedures were not developed and followed to         −   Enterprise Life Cycle (ELC)2 Supplement:
     properly conduct performance testing, and the                Enterprise Integration and Test Version 2.1,
     capacity of the test lab was inadequate to support           dated May 12, 2005.
     the Business Systems Modernization program.

     Testing activities were not completed before putting     −   BSMO Test Planning and Test Design
     systems into operation. Testing was not always               Procedure, effective February 25, 2005.
     performed to assure the adequacy of project              −   BSMO Requirements Review Procedure,
     capabilities, hardware upgrades, and system                  effective May 31, 2005.
     performance.                                             −   BSMO Test Readiness Review Procedure,
                                                                  effective February 25, 2005.
                                                              −   BSMO Test Case Deferral and Waiver
                                                                  Procedure, effective February 25, 2005.
                                                              −   ELC Supplement: Enterprise Integration and
                                                                  Test Version 2.1, dated May 12, 2005.
     Failed tests were not being properly resolved during     −   BSMO Defect Review Board Procedure,
     project development. Documentation was not                   effective February 25, 2005.
     adequate in defect reports to describe actions to        −   BSMO Test Readiness Review Procedure,
     resolve failed tests, and guidance was insufficient to       effective February 25, 2005.
     appropriately and consistently direct closure of         −   BSMO Test Completion Reporting Procedure,
     defect reports for failed tests.                             effective May 31, 2005.
    Source: TIGTA report Testing Practices for Business Systems Modernization Projects Need Improvement and
    the Office of Release Management procedures.


1
 Reference Number 2003-20-178, dated September 2003.
2
 The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that enable
delivery of promised business results. See Appendix IV for an overview of the components of the ELC.

                                                                                                             Page 23
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



Figure 2 identifies testing practice findings from TIGTA audit reports issued between March and
December 2004 and the subsequent BSMO Office of Release Management procedures
addressing the findings.
     Figure 2: Analysis of Test Practice Findings from March to December 2004
        and Subsequent Business Systems Modernization Testing Guidance
    Finding                                Corrective Action                 BSMO Release
                                                                             Management Procedure
    Additional focus is needed to          An embedded testing team has      −    Test Planning and Test
    monitor testing results since the      been established to further            Design Procedure, effective
    contractor did not always complete     enhance the Custodial                  February 25, 2005.
    the test procedures as written and     Accounting Project (CAP)          −    Test Completion Reporting
    test procedures were not updated       testing process. The team has          Procedure, effective
    with actual test results. (The         representatives from the CAP           May 31, 2005.
    Custodial Accounting Project3          project as well as MITRE4         −    ELC Supplement: Enterprise
    Team Is Making Progress;               support and will continue its          Integration and Test
    However, Further Actions Should        activity through CAP                   Version 2.1, dated
    Be Taken to Increase the Likelihood    Release 1 concurrent with exit         May 12, 2005.
    of a Successful Implementation,        of Milestone 5 (Completed
    Reference Number 2004-20-061,          November 5, 2003).
    dated March 2004).
    The ELC requires that all system       The RTVM will be updated          −    Test Planning and Test
    requirements include a Verification    and delivered with the final           Design Procedure, effective
    and Validation method. Systems         Systems Integration Testing            February 25, 2005.
    requirements listed in the             Report scheduled for delivery     −    Requirements Review
    Requirements Traceability              in August 2004. In addition,           Procedure, effective
    Verification Matrix (RTVM)5 did        the new ELC framework with              May 31, 2005.
    not include a Verification and         Milestone 4A will require the     −    Test Readiness Review
    Validation method (The Integrated      updates to the RTVM at                 Procedure, effective
    Financial System6 Project Team         Milestone 2 and updated at             February 25, 2005.
    Needs to Resolve Transition            each successive milestone, as a   −    ELC Supplement: Enterprise
    Planning and Testing Issues to         condition of milestone exit.           Integration and Test,
    Increase the Chances of a              The systems engineering                Version 2.1, dated
    Successful Deployment, Reference       reviews conducted within each          May 12, 2005.
    Number 2004-20-147, dated              ELC phase will include
    August 2004).                          validation of bi-directional
                                           traceability of requirements
                                           (Completed August 31, 2004).



3
  The CAP uses a data warehouse approach for storing, analyzing, and reporting taxpayer accounts and collections.
4
  MITRE is a not-for-profit corporation that provides the Internal Revenue Service with independent, expert, and
objective advice and guidance on strategic, technical, and program management issues.
5
  The RTVM documents the specific test cases and test results for each requirement.
6
  The Integrated Financial System Project includes the accounts payable, accounts receivable, general ledger, budget
execution, cost management, and financial reporting activities.

                                                                                                           Page 24
                Further Enhancements to the Guidance for Testing Practices
                   Will Help Ensure the Quality of Modernization Projects



Finding                                Corrective Action                  BSMO Release
                                                                          Management Procedure
The ELC provides guidance on the       The ELC requires the Program       −   BSMO Test Case Deferral
signatures required for moving and     Office Director’s signature for        and Waiver Procedure,
deleting requirements from a release   test case waivers and deferrals.       effective February 25, 2005.
including the Internal Revenue         This signature line is included
Service (IRS) Internal Management      in all but the earliest waiver
Program Director. The project team     forms (Completed
prepared deviation forms for a         May 31, 2004).
number of requirements but the
deviation forms did not include a
signature line for the Internal
Management Program Director (The
Integrated Financial System Project
Team Needs to Resolve Transition
Planning and Testing Issues to
Increase the Chances of a
Successful Deployment, Reference
Number 2004-20-147, dated
August 2004).


Without an understanding of why so     As the ELC calls for a lessons     −   Defect Review Board
many defects have been                 learned report after the exit          Procedure, effective
encountered, project teams may         of each Milestone, the IRS             February 25, 2005.
continue to experience testing         conducted a lessons                −   Test Readiness Review
delays, and future modernization       learned meeting on                     Procedure, effective
projects may not learn lessons based   December 15, 2004, as part of          February 25, 2005.
on the experience of a prior project   its post Milestone 4. The          −   Test Completion Reporting
team (The Integrated Financial         number of defects found was            Procedure, effective
System Project Team Needs to           within the project’s estimated         May 31, 2005.
Resolve Transition Planning and        expectations once the corrected
Testing Issues to Increase the         defect estimates were applied.
Chances of a Successful                The original estimate did not
Deployment, Reference Number           account for code developed for
2004-20-147, dated August 2004).       interfaces, reports, and user
                                       exits, which resulted in a
                                       significant difference in
                                       estimates (Completed
                                       January 1, 2005).




                                                                                                      Page 25
                    Further Enhancements to the Guidance for Testing Practices
                       Will Help Ensure the Quality of Modernization Projects



    Finding                                Corrective Action                   BSMO Release
                                                                               Management Procedure
    A major upgrade to an application      The IRS is planning a               −   BSMO Test Planning and
    was installed and went through         semiannual release of the               Test Design Procedure,
    system integration testing and         Customer Account Data                   effective February 25, 2005.
    deployment site readiness testing,     Engine in July and January.         −   Requirements Review
    but it did not receive the level and   The July delivery will involve          Procedure, effective
    volume of performance testing,         higher risk, more complex               May 31, 2005.
    simulating high volume processing a    functionality, and the January      −   Test Readiness Review
    pilot test offers (To Ensure the       delivery will include filing            Procedure, effective
    Customer Account Data Engine’s7        season changes combined with            February 25, 2005.
    Success, Prescribed Management         additional changes as capacity      −   ELC Supplement: Enterprise
    Practices Need to Be Followed,         permits. Since the returns              Integration and Test
    Reference Number 2005-20-005,          from earlier in the filing season       Version 2.1, dated
    dated November 2004).                  will be available for testing,          May 12, 2005.
                                           the IRS can conduct
                                           performance testing on the
                                           July release using the highest
                                           volume periods. The IRS will
                                           determine whether to conduct
                                           additional performance testing
                                           on the January release based
                                           on the likelihood of the
                                           changes affecting performance
                                           (Open - Due August 1, 2005;
                                           Extended to
                                           December 1, 2005).
    System requirements were not           For CAP Release 1.1, the            −   BSMO Test Planning and
    adequately managed during the          contractor, Northrop                    Test Design Procedure,
    Systems Acceptability Test (System     Grumman, made                           effective February 25, 2005.
    Requirements Were Not Adequately       enhancements to the automated       −   Requirements Review
    Managed During the Testing of the      requirements tool, REDCOAT.             Procedure, effective
    Custodial Accounting Project,          Due to these enhancements,              May 31, 2005.
    Reference Number 2005-20-019,          the IRS now traces system           −   Test Readiness Review
    dated December 2004).                  requirements to the test script8        Procedure, effective
                                           level. The RTVM shows                   February 25, 2005.
                                           traceability to the test script     −   ELC Supplement: Enterprise
                                           level as well as requirements           Integration and Test
                                           validation results. There are           Version 2.1, dated
                                           no unmapped requirements.               May 12, 2005.
                                           Exception reports identify
                                           requirements that are not
                                           mapped to test cases and test


7
  The Customer Account Data Engine Project will consist of databases and related applications and become the
foundation for managing taxpayer accounts in the IRS modernization plan.
8
  A series of instructions that carry out the test case description contained in the test plan.

                                                                                                           Page 26
                Further Enhancements to the Guidance for Testing Practices
                   Will Help Ensure the Quality of Modernization Projects



 Finding                             Corrective Action                  BSMO Release
                                                                        Management Procedure
                                     scripts. The reports also
                                     identify the disposition (i.e.,
                                     added, changed, or deleted) of
                                     requirements due to approved
                                     change requests. The IRS is
                                     storing deferral/waiver
                                     information (relative to test
                                     scripts and requirements) in
                                     REDCOAT to ensure
                                     consistency between the
                                     RTVM and the requirements
                                     reported as deferred/waived.
                                     In addition, the IRS altered the
                                     System Acceptance Testing
                                     process to perform
                                     requirements validation
                                     immediately following the
                                     execution of each test script.
                                     Therefore, when the team
                                     tester signs the hard copy
                                     printouts of requirements
                                     traced to test scripts, they are
                                     recording the requirements
                                     validation results. These
                                     enhancements will be used for
                                     all subsequent releases of the
                                     CAP (Completed June 30,
                                     2004).

Source: TIGTA audit reports and the Office of Release Management procedures.




                                                                                           Page 27
                 Further Enhancements to the Guidance for Testing Practices
                    Will Help Ensure the Quality of Modernization Projects



                                                                                Appendix VII

             Suggested Additions/Clarification
      to the Business Systems Modernization Office
                   Testing Procedures

The following is our analysis of the Office of Release Management testing procedures. The
analysis presents our suggestions to provide additional guidance or clarification to existing
guidance in the testing procedures.

Test Planning and Test Design Procedure

Perform Test Planning (section A1)
Step 2: Participate in the requirements gathering, development of requirements, and the analysis
of requirements in order to comprehend the logical design and how it relates to the requirements.
   Suggestion: Identify the participants responsible for performing this activity and the extent
   of their involvement. Provide details on the documentation required.
Step 3: Review the Interface Control Documents and testing related Memoranda of Agreements.
   Suggestion: Identify the participants responsible for performing this activity. Provide
   detailed steps on what this review process should include and what it will accomplish.
Step 7: Identify applicable standards as determined by the Project.
   Suggestion: Identify the participants responsible for performing this activity. List or define
   the “applicable standards” that should be identified or considered by the project and the
   purpose these standards will have on a project’s testing activity.
Step 11: Define procedures for problem reporting and escalation.
   Suggestion: Identify what these reporting and escalation procedures should include. This
   should include references to established guidelines or database systems used for capturing
   and controlling problems identified during testing (ClearQuest and Information Technology
   Assets Management System).




                                                                                          Page 28
                         Further Enhancements to the Guidance for Testing Practices
                            Will Help Ensure the Quality of Modernization Projects




Create Test Case Development Schedule (section A3)
The Test Case Development Schedule is created by each individual testing organization.
       Suggestion: Include the development of test scripts1 in the schedule.

Develop Test Cases (section A4)
Step 1: Obtain support from the projects as needed to facilitate test case development.
Step 2: Develop test cases that adequately cover all aspects of the project or system
requirement(s) identified to be in-scope for the current release. This includes verification of
valid and invalid conditions applicable to the designated requirement.
       Suggestion: Identify the procedure detailing a review of the test cases to ensure the
       adequacy of the test cases. The procedure should include how this review is performed,
       documented, and how to timely correct problems identified.

Update Requirements Traceability Verification Matrix (section A5)
Step 3: Perform a quality check to ensure all test cases in the planned baseline are accounted for
and all attributes are populated.
       Suggestion: Identify the participants responsible for performing this activity. The procedure
       should include how this review is performed, documented, and how to timely correct
       problems identified.

Develop Test Scripts (section A7)
Step 1: Obtain support from the project as needed to facilitate Test Script development.
Step 2: Design scripts that have a relationship to the test case in accordance with the test design
specifications.
       Suggestion: Identify the procedure detailing the review of the test scripts to ensure the
       adequacy of the test scripts. The procedure should include how this review is performed,
       documented, and how to timely correct problems identified.

Update Test Plan and Requirements Traceability Verification Matrix (section A9)
Step 2: Conduct a Customer Technical Review and finalize the Test Plan.
       Suggestion: This procedure indicates the test lead is responsible for performing the
       Customer Technical Review. The Requirements Review Procedure indicates the integrated
       project team or the Acquisition Project Manager is responsible for performing this review.

1
    A series of instructions that carry out the test case description contained in the test plan.

                                                                                                    Page 29
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



   Identify the participants responsible for performing this activity and ensure consistency
   within the Business Systems Modernization Office procedures. Include in the procedure
   references to the Requirements Review procedures or to established Customer Technical
   Review guidelines.

Test Readiness Review Procedure
The Test Readiness Review procedures show the test team is responsible for performing this
activity, with support from the Acquisition Project Manager, Office of Release Management, the
business operating divisions and functional organizations, Office of Configuration Management,
and the contractor. The procedure does not specify whether the test manager, test lead, or
Acquisition Project Manager is responsible for initiating and planning this review.
   Suggestion: Identify the participant(s) responsible for initiating, planning, and executing the
   Test Readiness Review. The procedure should include the extent of their responsibility and
   the responsibilities from those participants supporting this activity. Provide details on any
   documentation required.

Identify Test Readiness Review Participants and Prepare Tailored Test Readiness
Review Checklist (section A1)
Tailor the Checklist (Appendix A) to identify critical items and insert questions for
project-specific concerns.
   Suggestion: A mandatory Test Readiness Review Checklist should be developed for use in
   all testing activities. This revised checklist should incorporate all the necessary items from
   the Business System Modernization Office Test Readiness Review procedure checklist and
   the Internal Revenue Manual checklist. The Test Readiness Review procedure should make
   the use of this checklist mandatory; however, a project should be able to add any project-
   specific questions. The procedure should require all checklist questions be answered or
   otherwise noted as “not applicable.” The procedures should include a checklist review
   process to ensure the checklists are appropriately completed and that there are no unresolved
   items before testing commences. Additionally, questions added by projects should be
   considered for addition to the checklist template.

Defect Review Board Procedure

Conduct Defect Review Board Meetings (section A2)
This activity is performed as often as necessary as determined by the Defect Review Board lead.




                                                                                          Page 30
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



   Suggestion: Identify the participants responsible for selecting the Defect Review Board
   Lead and for performing this activity and the extent of their involvement or responsibilities.
   Provide details on any documentation required.
Review defect reports from previous tests (if applicable).
   Suggestion: Identify the procedure detailing the review of defect reports from previous tests
   to ensure the defects have been adequately resolved and are ready for testing. The procedure
   should include how this review is performed, documented, and how problems identified are
   timely corrected.
Review defect reports, agree on severity levels, and reassign severity levels (if necessary).
Agree on target dates for defect reports to be fixed.
   Suggestion: Identify the procedure detailing the review of defect report severity levels to
   ensure the changes made to the defects severity levels are consistently applied and properly
   approved. The procedure should include how this review is performed, logs prepared to
   document the reason for any changes and the applicable approvals, and how problems
   identified are timely corrected. Further, the procedure should include actions taken by the
   Defect Review Board Lead if target dates to resolve defects are not met.
   Establish procedures detailing actions for performing an analysis of defect reports when a
   significant number of defects are encountered during testing.

Test Folders and Records Procedure

Create Test Results Folder (section A1)
Create one electronic test results folder for each test identified in the Test Execution Schedule in
the team’s designated repository. This repository will be used to store the test results collected
during test execution. Each folder should contain: Test case(s), test script(s), test results, and
Test Case Summary Certification Report Form.

Compile Test Results Folder (section A2)
Throughout test execution, populate the electronic folder with the artifacts collected during test
execution. Document the outcome of test execution in the electronic version. Populate the
electronic folder with the test execution results (reference Rational Test Manager for completed
test script). Document resolution and closure of the Defect Reports (Reference Rational
ClearQuest for the applicable defect report). Document pass/fail results for each execution of the
test script. Ensure results are documented for each test script step modifications (redlines) and
the execution results obtained for each test script step and verification point. Provide a
comprehensive summary of test execution results using Test Case Summary Certification Report,
Form 6503.

                                                                                             Page 31
                  Further Enhancements to the Guidance for Testing Practices
                     Will Help Ensure the Quality of Modernization Projects



   Suggestion: The procedure should specify the version of Test Case Summary Verification
   Report (Form 6503) to use during testing. A review of all versions should be performed in
   order to develop an updated Form 6503 that will incorporate all appropriate information.
   The procedure needs to provide additional detail on how the defect reports, test script
   pass/fail execution results, test script modifications, and test results for each step and
   verification point should be documented in the test results folders. This includes
   documenting the various test script iterations. This will ensure test results folders
   consistency among all the BSM projects on how to capture and control this information. A
   test results folders checklist can help ensure inclusion of all required documentation.

Compile Test Results Folder (section A2)
Perform technical verification of actual results for a subset of test cases selected by Rational Test
Manager.

Verify Contents of Test Results Folder (section A3)
Verify the documentation provided in each test results folders within 2 to 3 business days
following test completion. Maintain and control the Test Results Folder until the end of test
script execution and test results verification. Perform a technical review of the artifacts provided
to ensure that the test objective has been met and is sufficiently documented.
   Suggestion: The procedure should identify who is responsible for performing these reviews,
   what the reviews should include, how the review should be documented, and a process to
   verify the reviews were completed. The procedure should include actions taken if the
   reviews are not completed within the 2 to 3 business days of test completion. Further,
   decisions must be made to use electronic or paper documentation to control Test Results
   Folder information. The procedure should specify where to maintain the Test Results Folder
   after the test completion and how long after test completion. Finally, the procedure requires
   the Acquisition Project Manager to certify the Test Results Folders include all applicable
   documentation, all pertinent reviews were performed within the 2 to 3 business days and
   signed by the reviewer, and the folders have been secured in the proper location. The
   procedures should require the Acquisition Project Manager to prepare a certification form for
   inclusion in the end of test report.

Test Completion Reporting Procedure

Review and Confirm Exit Criteria (section A1)
The Test Manager is responsible for confirming that the following exit criteria have been
satisfied in order to conclude test activities:
All test procedures have been executed.

                                                                                             Page 32
                     Further Enhancements to the Guidance for Testing Practices
                        Will Help Ensure the Quality of Modernization Projects



    Suggestion: Identify and reference to the specific test procedures. If this refers to the Test
    Plan or Test Cases, then the requirement needs to be corrected.
The disposition of all unresolved severity 3 and 4 defect reports2 must be reviewed for impact by
the Business Requirements Director and the Acquisition Project Manager, and an action plan
specifying proposed resolution must be developed and approved by the Business Requirements
Director and the Acquisition Project Manager.
    Suggestion: Identify the procedure detailing the review of the unresolved severity 3 and 4
    defect reports to ensure adequate resolution. The procedure should include how this review
    is performed, documented, and how problems identified are timely corrected. Additionally,
    the procedure should include detailed action plans (add an attachment for an action plan
    template).

Draft Test Report (section A2)
Distribute the Draft Test Report for review to the testing organizations and, upon request, to
management and the business representatives. Include preliminary conclusions supported by
initial observations and indicate what preliminary analysis was performed. Note areas that
require further analysis.

Issue Final Test Report (section A3)
The Test Manager is responsible for ensuring the content of the Test Report, issuance of the
Final Test Report only after the analysis of the test results for the release is complete, ensuring
issuance of the Final Test Report within 30 days following test completion, and obtaining
approval signatures.
    Suggestion: Identify the procedure detailing the analysis and presentation of test results.
    The procedure should include how this analysis is performed, documented, and how
    problems identified are timely corrected. Additionally, the procedure should include details
    on the actions taken if the report cannot be issued within the 30 days of test completion. The
    procedure should also list those individuals responsible for providing approval signatures.
    Identify the procedure detailing the activities performed when post initial operating
    capability (IOC) testing is being conducted to ensure all test results are being adequately
    reported. The procedure should include how post IOC is performed, documented, and how
    problems identified are timely corrected. Additionally, the procedure should include details
    on the impact to the final report, how the final report should present the post IOC test results



2
 A severity 3 defect report involves problems that are serious but do not prevent using or testing a required
capability. A severity 4 defect report involves minor problems, or documentation errors, that do not cause
deviations from tasks or project standards.

                                                                                                                Page 33
             Further Enhancements to the Guidance for Testing Practices
                Will Help Ensure the Quality of Modernization Projects



(or whether two reports should be issued), and whether authorized approvals were obtained
to conduct the post IOC testing and delay the issuance of the final report.
Additionally, the procedure should include the requirement that the Final Test Report
incorporate the Acquisition Project Manager’s completed certification form that the Test
Results Folders include all applicable documentation, all pertinent reviews were performed
within the 2-3 business days and signed by the reviewer, and the folders have been secured in
the proper location.




                                                                                     Page 34
    Further Enhancements to the Guidance for Testing Practices
       Will Help Ensure the Quality of Modernization Projects



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                          Page 35
Further Enhancements to the Guidance for Testing Practices
   Will Help Ensure the Quality of Modernization Projects




                                                      Page 36
Further Enhancements to the Guidance for Testing Practices
   Will Help Ensure the Quality of Modernization Projects




                                                      Page 37
